               Information on the Centralized Authorization
                  File Is Often Not Accurate or Complete

                                   August 2004

                       Reference Number: 2004-10-148




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           August 25, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION
                     DIRECTOR, OFFICE OF PROFESSIONAL RESPONSIBILITY


      FROM:                  (for) Gordon C. Milbourn III
                             Acting Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - Information on the Centralized Authorization
                             File Is Often Not Accurate or Complete (Audit # 200310037)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Centralized Authorization File (CAF). The overall objective of this review was to
      determine whether the processes and procedures established for the CAF were
      effective to maintain the accuracy of the database and to prevent unauthorized
      disclosure of taxpayer information. Because the information on the CAF is used by the
      IRS to communicate with taxpayers’ representatives about confidential tax matters, it is
      important that the information on the CAF is accurate and complete to prevent
      disclosure of tax information to unauthorized individuals and to ensure timely
      communication with taxpayers or representatives.
      In summary, we determined that the records on the CAF often contained incomplete or
      incorrect information. In a statistical sample of 500 records, there were 202 with
      discrepancies between information submitted on the authorization forms and
      information on the CAF. The factors that caused these discrepancies included
      representatives submitting new contact information on the authorization forms without
      indicating whether the information on the CAF should be updated, recent changes to
      IRS procedures and to the CAF database, and transcription errors on the part of IRS
      employees. In addition, the process to ensure authorization forms are transmitted
      timely to the CAF units was not adequate.
      In the same sample of 500 records, there were 27 representatives who did not appear
      to be authorized to practice before the IRS under the designation or jurisdiction listed on
      their authorization forms.
                                            2

Finally, there were 308 disciplinary actions taken against practitioners during the period
January 15, 1999, through December 31, 2003; 228 (74 percent) were not properly or
accurately recorded on the CAF.
We recommended the Director, Customer Account Services, Small Business/
Self-Employed (SB/SE) Division, alert CAF processing unit managers that the units are
not always following the most recent procedures for adding secondary taxpayer
(spouse) information to the CAF and provide training to ensure employees understand
and follow the most current procedures for processing taxpayer authorization forms.
We also recommended the Deputy Commissioner for Services and Enforcement ensure
timely processing of taxpayer authorization forms by establishing procedures that
require all IRS functions to forward these authorization forms to the appropriate CAF
processing unit within 24 hours of receipt. The Director, Customer Account Services,
SB/SE Division, should also consistently use date stamping and process work within
established guidelines in the CAF processing units. In addition, the Deputy
Commissioner for Services and Enforcement should consider developing a review
process to identify whether representatives listed on the Power of Attorney and
Declaration of Representative (Form 2848) are authorized to practice before the IRS.
Further, the Director, Customer Account Services, SB/SE Division, should assign
responsibility to a national coordinator to update the CAF based on notices from the
Office of Professional Responsibility. The Director, Office of Professional
Responsibility, should ensure the accuracy and consistency of practitioner actions
within the Office’s database and web site, Internal Revenue Bulletins, and the CAF by
periodically verifying the information.
Management’s Response: IRS management agreed with our recommendations and
has initiated or is planning to implement corrective actions. Specifically, the IRS plans
to alert CAF unit managers to ensure employees are following current procedures and
plans to provide training material with current procedures to be delivered during annual
training presentations. The IRS also plans to contact Internal Revenue Manual
coordinators and functional leadership to request inclusion of a requirement to forward
authorization forms to the appropriate CAF processing unit within 24 hours after
validation of the information on the form.
Additionally, the IRS has initiated corrective actions for implementation of specific
guidelines for capturing the received dates of faxed submissions and date stamping
requirements for mail and routed submissions, drafted an interim guidance
memorandum outlining procedures for verification of a representative’s eligibility, and is
in the process of upgrading electronic systems that will compare information on the
eligibility of practitioners. The IRS has established a national coordinator who will be
responsible for updating the CAF based on notices from the Office of Professional
Responsibility. In addition, the Office of Professional Responsibility has updated its web
site and is implementing procedures to improve its computer control systems and
provide better communication of its disciplinary actions.
                                                        3

Management did not agree with the magnitude of our assessment of the issues
regarding different, inaccurate, or incomplete information recorded on the CAF.
Management believes it would have been difficult for us to make a conclusive
determination on the accuracy of each record because the CAF cannot provide an audit
trail to identify all changes that have been made to each CAF record. As such,
management believes some discrepancies could have been caused by subsequent
updates provided by the taxpayers or their representatives. Accordingly, management
did not agree with the estimate we provided in Appendix IV of the total number of
taxpayer records affected over a 5-year period. Management’s complete response to
the draft report is included as Appendix V.
Office of Audit Comment: The errors and inaccuracies identified from our statistical
samples were evaluated based on the signed date of the authorization form. Our
sample errors or inaccuracies involved an authorization form with a signed date that
was more current than the last recorded signed date on the CAF. Therefore, the
discrepancies we identified were not caused by subsequent updates by taxpayers or
their representatives. Moreover, the IRS quality review system1 as well as an internal
independent review2 established that there are problems with the accuracy of
information on the CAF. Based on the methodology of our analysis and the results of
the IRS’ own internal review processes, we believe our estimate of the number of
taxpayer records affected is valid.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




1
    SB/SE Accounts Management Program Analysis System.
2
    IRS SB/SE Division, “Power of Attorney Independent Review,” dated February 6, 2004.
                                Information on the Centralized Authorization
                                    File Is Often Not Accurate or Complete




                                                 Table of Contents


Background ............................................................................................... Page 1
Information on the Centralized Authorization File Is Often Not
Accurate or Complete................................................................................ Page 2
         Recommendation 1: .......................................................................Page 5
         Recommendation 2: .......................................................................Page 6

Procedures for Transmitting Forms to the Centralized
Authorization File Units Are Not Adequate ................................................ Page 6
         Recommendation 3: .......................................................................Page 7
         Recommendation 4: .......................................................................Page 8

Some Representatives on the Centralized Authorization File
May Not Be Authorized to Practice Before the IRS ................................... Page 8
         Recommendation 5: .......................................................................Page 9

Disciplinary Actions Against Practitioners Are Often Not
Properly Recorded .................................................................................... Page 10
         Recommendations 6 and 7: ...........................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Outcome Measures............................................................ Page 17
Appendix V – Management’s Response to the Draft Report ..................... Page 19
             Information on the Centralized Authorization File
                    Is Often Not Accurate or Complete

                           By law, the Internal Revenue Service (IRS) can disclose tax
Background                 information to the taxpayer or to a designee or
                           attorney-in-fact of the taxpayer.1 Individual or business
                           taxpayers can authorize one or more individuals to represent
                           them on tax returns or other tax-related issues including
                           Appeals function, tax court, examination, and collection
                           activity. A taxpayer can also authorize a designee or
                           attorney-in-fact to receive confidential tax information.2
                           A taxpayer may authorize someone to represent him or her
                           by submitting a Power of Attorney and Declaration of
                           Representative (Form 2848) or a United States Estate (and
                           Generation-Skipping Transfer) Tax Return (Form 706) to
                           the IRS. A taxpayer may authorize the IRS to disclose tax
                           information to a designee by submitting a Tax Information
                           Authorization (Form 8821). Taxpayers also may orally
                           communicate their authorizations to disclose tax
                           information to a designee.
                           These taxpayer authorization forms are sent directly by the
                           taxpayer or forwarded by an IRS employee to one of three
                           centralized processing units.3 Information from the taxpayer
                           authorization forms is then recorded on a national IRS
                           computer file called the Centralized Authorization File
                           (CAF). The three CAF processing units are part of the
                           Small Business/Self-Employed (SB/SE) Division.
                           Once information from a taxpayer authorization form is
                           recorded on the CAF, IRS employees are able to determine
                           the scope of authority granted by the taxpayer. It also
                           enables the IRS to direct copies of tax notices and
                           correspondence to a representative using the address on file.
                           In addition, the CAF provides important contact information
                           (telephone and fax numbers) that IRS employees can use to
                           communicate with representatives. If the CAF information
                           is not reliable, the IRS can inadvertently disclose sensitive
                           tax information to individual(s) that are not authorized by
                           the taxpayer.



                           1
                             Internal Revenue Code (I.R.C.) § 6103 (2002).
                           2
                             I.R.C. § 6103 (c) (2002).
                           3
                             The Centralized Authorization File processing units are located in
                           Memphis, Tennessee; Ogden, Utah; and Philadelphia, Pennsylvania.
                                                                                           Page 1
                      Information on the Centralized Authorization File
                             Is Often Not Accurate or Complete

                                    Guidelines governing practice before the IRS have been
                                    revised for individuals or practitioners representing
                                    taxpayers. The Office of Professional Responsibility has the
                                    duty of administering and enforcing the regulations
                                    governing practice before the IRS. Complaints about
                                    practitioners are investigated and can result in censure,
                                    suspension, and disbarment if a practitioner is incompetent;
                                    is disreputable; violates Department of the Treasury Circular
                                    Number 230; or, with intent to defraud, willfully and
                                    knowingly misleads or threatens the taxpayer being
                                    represented. The Office of Professional Responsibility
                                    reports to the Deputy Commissioner for Services and
                                    Enforcement.
                                    This review was performed at the Memphis, Ogden, and
                                    Philadelphia Accounts Management Centers, the CAF
                                    Section of the Detroit Computing Center, the Office of
                                    Professional Responsibility in Washington, D.C., and the
                                    SB/SE Division in New Carrollton, Maryland, during the
                                    period September 2003 through May 2004. The audit was
                                    conducted in accordance with Government Auditing
                                    Standards.
                                    Detailed information on our audit objective, scope, and
                                    methodology is presented in Appendix I. Major
                                    contributors to the report are listed in Appendix II.
                                    Because the information on the CAF is used by the IRS to
Information on the Centralized
                                    communicate with taxpayers’ representatives about
Authorization File Is Often Not
                                    confidential tax matters, it is important that the information
Accurate or Complete
                                    on the CAF is accurate and complete to prevent disclosure
                                    of tax information to unauthorized individuals and to ensure
                                    timely communication with taxpayers or representatives.
                                    However, 41 percent of a statistical sample of CAF records
                                    contained discrepancies between information on the
                                    authorization forms and information on the CAF.
                                    Approximately 1.1 million taxpayer authorization forms
                                    were recorded on the CAF during Fiscal Year (FY) 2003.
                                    We selected a statistical sample of 500 records and found
                                    202 records with discrepancies between the authorization
                                    forms and the CAF. The discrepancies included different,
                                    inaccurate, or incomplete information for such items as
                                    telephone numbers, fax numbers, addresses, and secondary

                                                                                           Page 2
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete

              taxpayer (spouse) information. Table 1 provides a summary
              of the types of discrepancies we identified in the sample.
              Table 1: Discrepancies Between Authorization Forms and the CAF

                                       Type of Discrepancy                          Count4

                  Representative’s address was different, inaccurate, or              85
                  incomplete.
                  Representative’s telephone number or fax number was                 70
                  different, inaccurate, or incomplete.
                  Secondary taxpayer’s (spouse) information was not included or       40
                  was incomplete on the CAF.
                  Enrollment numbers for Enrolled Agents5 were not included on        23
                  the CAF.
                  Taxpayer’s or representative’s name on the authorization form       20
                  did not match that on the CAF.
                  Other (e.g., certain tax periods were not recorded on the CAF,      20
                  signature dates were missing).
              Source: Treasury Inspector General for Tax Administration
              (TIGTA) review of 500 taxpayer authorization forms submitted
              during FY 2003 compared to information on the CAF.

              Based on our sample results, we estimate approximately
              456,000 of the records recorded on the CAF in FY 2003
              have discrepancies that could lead to delays in providing
              information to representatives or inadvertent disclosure of
              confidential tax information to unauthorized third parties.
              There are a number of factors which caused discrepancies
              between authorization forms and the CAF. These factors
              included representatives submitting new contact information
              on the authorization forms without indicating whether the
              information on the CAF should be updated, recent changes
              to IRS procedures and to the CAF database, and
              transcription errors on the part of IRS employees.
              Internal Revenue Manual (IRM) procedures for processing
              taxpayer authorization forms were significantly revised in
              FYs 2002, 2003, and 2004. The newest revision of the IRM

              4
                There were 202 CAF records identified with 258 inaccuracies. Some
              of these records contained multiple inaccuracies or incomplete fields.
              5
                An enrolled agent is a tax professional who has demonstrated special
              competence in tax matters, has applied for enrollment, and has been
              issued an enrollment card by the IRS.
                                                                                   Page 3
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete

              should help improve the accuracy of representative contact
              information recorded on the CAF. It requires CAF
              processing unit employees to take further action to verify
              the information provided on an authorization form when the
              information appears outdated, in error, or incomplete.
              Those actions will include comparing the date the form was
              received in the CAF processing unit with the date(s) of the
              signatures on the form and contacting the representative via
              telephone, fax, or correspondence.
              In March 2003, the CAF database was redesigned and
              reprogrammed. The database was changed to accommodate
              secondary taxpayer (spouse) information separately on the
              CAF. This caused confusion for the CAF processing unit
              employees as to what action was necessary to correctly
              input the secondary Power of Attorney requestor to the
              CAF. In addition, the CAF database was expanded in early
              2003 to allow a representative’s fax number to be input;
              however, employees did not always record this fax number
              on the CAF.
              The IRS recently completed its own review of the Power of
              Attorney process.6 Its findings indicated that taxpayers and
              their representatives are experiencing a high number of
              problems with the process and the loading of information on
              to the CAF. The IRS internal review team identified
              potential actions, such as updating training materials and
              publishing a desk reference to guide employees, which
              could help improve the reliability of information on the
              CAF. The SB/SE Division Customer Account Services
              function is also planning to develop a communication
              package with its Taxpayer Education and Communication
              function, as well as to send brochures explaining the
              rejection process to taxpayers and their representatives.
              Further, the IRS is planning to allow these authorization
              forms to be filed electronically through its Disclosure
              Authorization Program. This may help to reduce the
              percentage of incomplete or inaccurate CAF records,
              especially those related to incomplete submissions or
              transcription errors. However, this Program is not available


              6
               IRS SB/SE Division, “Power of Attorney Independent Review,”
              dated February 6, 2004.
                                                                         Page 4
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete

              to the general public. Only approved IRS business partners,
              such as electronic filing tax professionals and payers, are
              eligible to participate. At the time of this report, the IRS
              had begun the implementation phase of this Program.
              Overall, while the IRS has taken a number of actions to
              improve the process for validating and inputting the
              authorization forms, additional action is needed to ensure
              employees understand and follow the process.

              Recommendations

              The Director, Customer Account Services, SB/SE Division,
              should:
              1. Alert CAF processing unit managers that the units are
                 not always following the most recent procedures for
                 adding secondary taxpayer (spouse) information to the
                 CAF.
              Management’s Response: IRS management agreed to
              remind managers to ensure employees are following the
              current guidelines for adding secondary taxpayer (spouse)
              information to the CAF.
              IRS management did not agree with the magnitude of our
              assessment of the issues regarding different, inaccurate, or
              incomplete information recorded on the CAF. Management
              believes it would have been difficult for us to make a
              conclusive determination on the accuracy of each record
              because the CAF cannot provide an audit trail to identify all
              changes that have been made to each CAF record.
              Management stated that the 202 of 500 sample records
              identified with different, inaccurate, or incomplete
              information probably overstated the magnitude of the issues
              because there is currently no audit trail and discrepancies
              could have been caused by subsequent changes submitted
              by the originators of the requests. Accordingly,
              management did not agree with the estimate we provided in
              Appendix IV of the total number of taxpayer records
              affected over a 5-year period.
              Office of Audit Comment: The errors and inaccuracies
              identified from our statistical samples were evaluated based
              on the signed date of the authorization form. Our sample
                                                                    Page 5
                     Information on the Centralized Authorization File
                            Is Often Not Accurate or Complete

                                   errors or inaccuracies involved an authorization form with a
                                   signed date that was more current than the last recorded
                                   signed date on the CAF. Therefore, the discrepancies we
                                   identified were not caused by subsequent updates by
                                   taxpayers or their representatives. Moreover, the IRS
                                   quality review system7 as well as an internal independent
                                   review8 established that there are problems with the
                                   accuracy of information on the CAF. Based on the
                                   methodology of our analysis and the results of the IRS’ own
                                   internal review processes, we believe our estimate of the
                                   number of taxpayer records affected is valid.
                                   2. Provide training to ensure employees understand and
                                      follow the most current procedures for processing
                                      taxpayer authorization forms. Specific training modules
                                      should be devoted to adding secondary taxpayer
                                      (spouse) information to the CAF and performing further
                                      research when information on authorization forms
                                      appears outdated, in error, or incomplete to ensure the
                                      information is accurate before it is input to the CAF.
                                   Management’s Response: IRS management agreed to
                                   provide training material to address secondary taxpayer
                                   (spouse) information and procedures for researching
                                   outdated, erroneous, or incomplete information identified on
                                   authorization forms. This material will be provided during
                                   annual training. In addition, the IRM is being revised to
                                   provide more detailed instructions on these areas.

Procedures for Transmitting        Based on our statistical sample of 500 taxpayer
Forms to the Centralized           authorization forms submitted in FY 2003, there was
Authorization File Units Are       generally not enough information available to determine
Not Adequate                       whether the forms were received and processed timely.
                                   The CAF processing units have established guidelines for
                                   time standards but have inconsistent date stamping
                                   procedures. Only one CAF processing unit adequately date
                                   stamped the taxpayer authorization forms when they arrived
                                   in the unit and when the employees completed recording the
                                   information to the CAF.


                                   7
                                    SB/SE Division Accounts Management Program Analysis System.
                                   8
                                    IRS SB/SE Division, “Power of Attorney Independent Review,” dated
                                   February 6, 2004.
                                                                                              Page 6
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete

              In the one CAF processing unit that did date stamp the
              forms, employees generally input the form information
              timely to the CAF. However, some of the other IRS
              functions that received the authorization forms often took
              long periods of time to transmit the forms to this CAF
              processing unit. For example, we found that it took longer
              than 5 workdays for the functions to forward 38 (21 percent)
              of the 182 forms in our sample to this CAF processing unit;
              the average time to forward these 38 forms was 19 days. If
              forms are not timely sent to a CAF processing unit,
              representatives may be delayed in receiving taxpayer
              information and discussing the information with IRS
              employees.
              CAF processing unit managers and personnel stated that the
              delays in receiving forms from other IRS functions are
              usually caused by inconsistent procedures and practices in
              those functions. The IRS internal review team
              recommended IRS functions implement procedures to
              forward taxpayer authorization forms to the CAF processing
              units within 24 hours of receipt. We agree that the IRS
              should implement this recommendation.
              The timely processing of taxpayer authorization forms is
              important for IRS customer service and helps prevent
              taxpayer problems. Without consistent procedures and
              practices to timely process the forms and a means to
              monitor timeliness, the IRS will not know if its processes
              are adequate.

              Recommendations

              3. The Deputy Commissioner for Services and
                 Enforcement should ensure timely processing of
                 taxpayer authorization forms by establishing procedures
                 that require all IRS functions to forward these
                 authorization forms to the appropriate CAF processing
                 unit within 24 hours of receipt.
              Management’s Response: The Director, Customer Account
              Services, SB/SE Division, will contact IRM coordinators
              and functional leadership to establish that authorization
              forms be forwarded to the appropriate CAF processing units
              within a specific time frame. The Director will encourage
                                                                    Page 7
                     Information on the Centralized Authorization File
                            Is Often Not Accurate or Complete

                                   the receiving functions to first verify the information on the
                                   forms before forwarding them to the CAF units. As the
                                   verification process may take more than 1 day, corrective
                                   actions will include a requirement to forward each
                                   authorization form to the appropriate CAF unit within
                                   24 hours after verification of information on the form.
                                   4. The Director, Customer Account Services, SB/SE
                                      Division, should consistently use date stamping and
                                      process work within established guidelines in the CAF
                                      processing units.
                                   Management’s Response: IRS management has revised the
                                   IRM guidelines for capturing the received date of faxed
                                   submissions and date stamping mail and routed
                                   submissions.

Some Representatives on the        On Form 2848, the IRS instructs taxpayers that the
Centralized Authorization File     individual they authorize to represent them must be a person
May Not Be Authorized to           eligible to practice before the IRS. The representative
Practice Before the IRS            named by the taxpayer must sign and date the declaration,
                                   enter the designation under which he or she is authorized to
                                   practice before the IRS, and provide the state of his or her
                                   jurisdiction if he or she is an attorney or Certified Public
                                   Accountant. The designations a representative may enter
                                   are as follows:
                                          Attorney.
                                          Certified Public Accountant.
                                          Enrolled Agent.
                                          Officer (of the business represented).
                                          Full-Time Employee (of the business represented).
                                          Family Member.
                                          Enrolled Actuary.
                                          Unenrolled Return Preparer (with limitations).9
                                   The approximately 1.1 million taxpayer authorization forms
                                   that were recorded on the CAF during FY 2003 provided
                                   authorization for 1.6 million representatives (more than

                                   9
                                     An unenrolled return preparer is permitted to represent taxpayers only
                                   before customer service representatives, revenue agents, and
                                   examination officers, with respect to an examination regarding the
                                   return he or she prepared.
                                                                                                    Page 8
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete

              1 representative can be included on the form). Of these
              representatives, over 1.2 million were listed as Attorneys,
              Certified Public Accountants, and Enrolled Agents. Our
              review of the Power of Attorney forms recorded on the CAF
              indicated that some of these individuals did not accurately
              record their jurisdiction, authorization level, or status of
              professional license and may not be authorized to represent
              taxpayers before the IRS.
              In our statistical sample of 500 taxpayer authorization forms
              submitted in FY 2003, there were 487 representatives who
              provided their designations as either Attorneys, Certified
              Public Accountants, or Enrolled Agents authorized to
              practice before the IRS. Based on our search of public
              records and an IRS database,10 there were 27 representatives
              who did not appear to be authorized to practice before the
              IRS under the designation or jurisdiction listed on their
              authorization forms. These 27 representatives recorded
              inaccurate information or had lapsed professional licenses or
              certifications; they are representing approximately
              25,000 taxpayers before the IRS.
              The status of these representatives may cause problems if
              the taxpayers need to rely on these individuals for
              representation during the IRS examination or collection
              process or in the Appeals function or tax court. The IRS
              currently has no process to verify the accuracy of the
              professional designations before accepting the Forms 2848.
              Although the IRS Office of Professional Responsibility will
              investigate matters such as potential misrepresentation, it
              relies heavily on IRS employees to review the accuracy of a
              taxpayer representative declaration and forward identified
              irregularities for the appropriate disciplinary action(s).

              Recommendation

              5. The Deputy Commissioner for Services and
                 Enforcement should consider developing a review
                 process to identify whether representatives listed on


              10
                Public records include State Bar Associations and State Boards of
              Accountancy on the Internet. The IRS Office of Professional
              Responsibility has a database of Enrolled Agents.
                                                                             Page 9
                      Information on the Centralized Authorization File
                             Is Often Not Accurate or Complete

                                         Forms 2848 are authorized to practice before the IRS.
                                         This could include a review of a sample of Forms 2848.
                                    Management’s Response: The Director, Payment
                                    Compliance, SB/SE Division, has drafted an interim
                                    guidance memorandum outlining procedures for verification
                                    of a representative’s eligibility and status to practice before
                                    the IRS prior to forwarding a form to a CAF processing
                                    unit. In addition, electronic systems are being upgraded to
                                    compare database information on the eligibility and status of
                                    practitioners.

Disciplinary Actions Against        The IRS Office of Professional Responsibility administers
Practitioners Are Often Not         the laws and regulations governing the practice of tax
Properly Recorded                   professionals before the IRS. In FY 2003, it operated with a
                                    staff of 27 and a budget of $2.8 million to carry out its
                                    responsibilities.11 One of its key responsibilities is to
                                    enforce the regulations governing practice before the IRS,
                                    including censure, suspension, and disbarment if a
                                    practitioner is incompetent; is disreputable; violates
                                    Department of the Treasury Circular Number 230; or, with
                                    intent to defraud, willfully and knowingly misleads or
                                    threatens the taxpayer being represented.
                                    When the Office of Professional Responsibility takes
                                    disciplinary actions, such as censure, suspension, or
                                    disbarment, on representatives who practice before the IRS,
                                    its policy is to maintain the actions on its own databases,
                                    record the information on its web site, and inform the public
                                    through Internal Revenue Bulletins. However, our review
                                    of the disciplinary actions taken by the Office of
                                    Professional Responsibility indicates the IRS did not always
                                    record the actions in each of these locations, nor did the
                                    CAF units always accurately or timely record these actions
                                    on the CAF.
                                    We reviewed 308 disciplinary actions taken between
                                    January 1999 and December 2003.12 Of these 308 actions,


                                    11
                                       The IRS has increased its emphasis on the oversight of tax
                                    professionals. In FY 2004, the Office of Professional Responsibility has
                                    a staff of 49 and a budget of approximately $5 million.
                                    12
                                       The IRS does not have a comprehensive list of these actions. We
                                    compiled the list of 308 actions by analyzing the databases, the IRS web
                                    site, and the 2003 Internal Revenue Bulletins.
                                                                                                   Page 10
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete

              66 were not recorded in the IRS databases and 95 were
              not published on the IRS web site. Furthermore,
              228 (74 percent) of the 308 actions were not properly or
              accurately recorded on the CAF. Table 2 shows a
              comparison of the disciplinary actions with the information
              recorded on the CAF.
                Table 2: Comparison of Disciplinary Actions and CAF Records

                                 Result of Comparison                           Count
              Practitioner was suspended or disbarred, but the CAF did not
                                                                                   61
              indicate any type of action.
              Practitioner was suspended or disbarred, but the CAF had no
                                                                                   48
              active record.
              Practitioner action was completed, but the CAF indicated
                                                                                   31
              action was still in effect.
              Practitioner died or resigned, but the CAF indicated an active
                                                                                    4
              record.
              Practitioner was suspended, but the CAF indicated
                                                                                   69
              disbarment.
              Practitioner was disbarred, but the CAF indicated suspension
                                                                                   15
              or resignation.
              Practitioner action matched the CAF.                                 80

              Total                                                               308
              Source: TIGTA comparison of disciplinary actions and CAF records.

              These discrepancies can cause confusion and inappropriate
              action by IRS employees and increase burden for taxpayers
              and tax practitioners. Employees relying on information on
              the CAF could provide confidential taxpayer information to
              a suspended or disbarred practitioner. Conversely,
              employees may refuse to disclose taxpayer information to a
              practitioner who has completed the period of suspension.
              Since its recent reorganization, the Office of Professional
              Responsibility has assigned an employee the responsibility
              of updating and maintaining the practitioner disciplinary
              actions on its web site to prevent further inconsistencies.
              However, the overall responsibility has not been established
              by CAF management to make sure the sanction actions are
              updated to the CAF timely and accurately.




                                                                               Page 11
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete

              Recommendations

              6. The Director, Customer Account Services, SB/SE
                 Division, should assign responsibility to a national
                 coordinator to update the CAF based on notices from the
                 Office of Professional Responsibility.
              Management’s Response: IRS management established a
              national coordinator position in the Memphis CAF unit to
              be responsible for updating the CAF based on notices
              received from the Office of Professional Responsibility.
              7. The Director, Office of Professional Responsibility,
                 should ensure the accuracy and consistency of
                 practitioner actions within the Office’s database and web
                 site, Internal Revenue Bulletins, and the CAF by
                 periodically verifying the information.
              Management’s Response: The Office of Professional
              Responsibility is in the process of replacing its management
              information system and has recently updated its Intranet
              web site to allow for employee searches of practitioner
              disciplinary actions. The Office of Professional
              Responsibility will also obtain access to the Integrated Data
              Retrieval System13 for verifying that its disciplinary actions
              are input to the CAF.




              13
                IRS computer system capable of retrieving or updating stored
              information; it works in conjunction with a taxpayer’s account records.



                                                                             Page 12
                          Information on the Centralized Authorization File
                                 Is Often Not Accurate or Complete

                                                                                                 Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the processes and procedures established for the
Centralized Authorization File (CAF) were effective to maintain the accuracy of the database
and to prevent unauthorized disclosure of taxpayer information. To accomplish this objective,
we:
I.      Determined what guidance has been provided to Internal Revenue Service (IRS)
        employees, taxpayers, and their designated Powers of Attorney regarding the disclosure,
        processing, and maintenance of taxpayer and representative information on the CAF.
        A. Reviewed the Internal Revenue Code, Treasury Regulations, Internal Revenue
           Manual, IRS publications and instructions available to taxpayers and tax practitioners,
           IRS directives issued to IRS employees, and desk guides relating to the processing
           and maintenance of taxpayer authorizations and third-party practitioners.
        B. Reviewed the National or local IRS Office of Chief Counsel opinions relating to the
           CAF or third-party practitioners.
II.     Obtained an extract of the CAF database to determine the number of Powers of Attorney
        and representatives it contained. We then selected a sample to be used during our testing.
        A. Contacted the IRS Detroit Computing Center and the CAF Programming Group and
           obtained an extract of the CAF. We analyzed and validated the extract database
           values for accuracy and completeness.
        B. Analyzed the CAF extract and identified approximately 1.1 million Power of
           Attorney authorization forms1 recorded on the CAF during the period
           October 1, 2002, through September 30, 2003.
        C. Discussed possible sampling methodologies with an expert statistician. Based on an
           attribute sampling methodology with a 95 percent confidence interval, an expected
           error rate between 40-60 percent, and a precision rate of +/- 5 percent, we selected a
           stratified sample of 500 Power of Attorney authorization forms for review. This one
           sample was used for all objectives and tests in this review. The first stratum was
           composed of Forms 2848, and the second and third strata were composed of
           Forms 8821 and 706, respectively. Based on the proportional number of
           authorization forms recorded on the CAF during Fiscal Year 2003, we selected a


1
 Power of Attorney authorization forms are Power of Attorney and Declaration of Representative (Form 2848),
United States Estate (and Generation-Skipping Transfer) Tax Return (Form 706), and Tax Information
Authorization (Form 8821).
                                                                                                      Page 13
                          Information on the Centralized Authorization File
                                 Is Often Not Accurate or Complete

             statistical sample of 409 Forms 2848 (82 percent), 46 Forms 8821 (9 percent), and
             45 Forms 706 (9 percent) for review.
III.    Determined whether current procedures are adequate to identify possible
        misrepresentation when Power of Attorney designations are incorrectly stated on the
        authorization forms.
        A. Reviewed the sample of authorization forms, compared each form to current CAF
           data, and validated by researching the Internet web sites (for State Bar Associations
           and State Boards of Accountancy) and the IRS Enrolled Practitioner System (EPS)2
           database for their current status.
        B. Reviewed the accuracy of the Office of Professional Responsibility’s censured,
           suspended, or disbarred practitioner information on the CAF by researching the
           Office of Professional Responsibility’s database, the IRS web site, and Internal
           Revenue Bulletins for sanctioned actions taken during the period January 15, 1999,
           through December 31, 2003. We then researched the CAF to validate whether these
           practitioners were identified as censured, suspended, or disbarred.
IV.     Determined whether the data stored on the CAF were accurate and adequate to prevent
        unauthorized disclosure to third parties that contact or receive taxpayer information from
        the IRS. We compared our sample of original authorization forms to the current CAF
        database. We then determined the inaccuracies caused by transcription error, procedures,
        taxpayers and representatives, and database constraints.
V.      Determined whether the IRS is timely processing the Power of Attorney authorization
        forms and whether error rates have been reduced by the modernization of the CAF
        database. From our sample, we reviewed the original authorization forms for
        preprocessing dates, dates received in the CAF processing units, and dates authorization
        information was input to the CAF.
VI.     Determined what actions the IRS has taken or plans to initiate to modernize processing
        and increase the accuracy of the CAF.
        A. Contacted the Small Business/Self-Employed Division Program Management Office,
           the Information Technology Services organization, and the IRS Office of Electronic
           Tax Administration to discuss IRS plans for the electronic filing of Power of Attorney
           authorizations. We learned of an e-service program called Disclosure Authorization.
        B. Interviewed Disclosure Authorization Program personnel to determine the scope of
           the Disclosure Authorization Program.


2
 The EPS is a database that provides automated support to the Office of Professional Responsibility legal examiners
who process practitioner records.


                                                                                                         Page 14
                     Information on the Centralized Authorization File
                            Is Often Not Accurate or Complete

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Aaron R. Foote, Audit Manager
Mark A. Judson, Lead Auditor
Thomas F. Polsfoot, Senior Auditor
Michael J. Della Ripa, Auditor




                                                                                      Page 15
                    Information on the Centralized Authorization File
                           Is Often Not Accurate or Complete

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
    Deputy Commissioner for Operations Support OS
    Deputy Commissioner for Services and Enforcement SE
    Chief Information Officer OS:CIO




                                                                                    Page 16
                          Information on the Centralized Authorization File
                                 Is Often Not Accurate or Complete

                                                                                                  Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; approximately 2.3 million taxpayer records over a 5-year
    period could have discrepancies between information provided on the taxpayer authorization
    forms and information recorded on the Centralized Authorization File (CAF) (see page 2).
Methodology Used to Measure the Reported Benefit:
We obtained a computer extract of approximately 1.1 million taxpayer authorization forms
recorded on the CAF during Fiscal Year (FY) 2003 (October 1, 2002, through
September 30, 2003). We selected a statistical sample of 500 records that was stratified among
the 3 types of authorization forms: Power of Attorney and Declaration of Representative
(Form 2848), United States Estate (and Generation-Skipping Transfer) Tax Return (Form 706),
and Tax Information Authorization (Form 8821). In this sample, we found 202 records with
discrepancies between the authorization forms and the CAF. Using a 95 percent confidence
level and applying the error rates for each stratum in our sample, we estimated 456,000 records
(+/- 4.3 percent) have discrepancies between information on the authorization form and
information recorded on the CAF. Over a 5-year period, this projects to approximately
2.3 million records. Discrepancies could lead to delays in providing information to
representatives or to inadvertent disclosure of confidential tax information to unauthorized third
parties.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; approximately 25,000 taxpayers represented by 27 individuals
    who may not be authorized to practice before the IRS (see page 8).
Methodology Used to Measure the Reported Benefit:
We used the same statistical sample identified above of 500 authorization forms recorded on the
CAF during FY 2003. In this sample, we identified 487 individuals who were listed on the
authorization forms as Attorneys, Certified Public Accountants, or Enrolled Agents.1 A review
of Internet web site information indicated 27 individuals had an inaccurate authorization or a


1
 An enrolled agent is a tax professional who has demonstrated special competence in tax matters, has applied for
enrollment, and has been issued an enrollment card.
                                                                                                          Page 17
                       Information on the Centralized Authorization File
                              Is Often Not Accurate or Complete

lapsed certification. With assistance from the CAF Programming Group, we determined that
these 27 individuals are representing approximately 25,000 taxpayers. The status of these
representatives may cause problems if the taxpayers need to rely on these individuals for
representation during the IRS examination or collection process or in the Appeals function or tax
court.
Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Actual; 197 taxpayers whose representatives have been
    disbarred, censured, or suspended by the Office of Professional Responsibility, but the
    sanctions have not been properly or accurately recorded on the CAF (see page 10).
•   Taxpayer Burden – Actual; 31 taxpayers whose representatives are listed on the CAF as
    currently under Office of Professional Responsibility sanction, when in fact the sanctions
    have been completed (see page 10).
Methodology Used to Measure the Reported Benefit:
We obtained databases of censured, suspended, and disbarred practitioners, evaluated the Office
of Professional Responsibility’s Internet web site, and reviewed the practitioner disciplinary
actions listed in the Internal Revenue Bulletins during the period October 1, 2002, through
September 30, 2003. We selected all actions applied by the Office of Professional Responsibility
during the period January 15, 1999, through December 31, 2003 (5 years), and identified
308 individual sanctions. We reviewed the 308 individual disciplinary actions and found
66 were not recorded in the IRS databases and 95 were not published on the IRS web site.
Furthermore, 228 (74 percent) of the 308 actions were not properly or accurately recorded on the
CAF.
Of the 228 actions not properly or accurately recorded on the CAF, 197 involved taxpayers
whose representatives have been disbarred, censured, or suspended by the Office of Professional
Responsibility, but the sanctions were not properly or accurately recorded. The remaining
31 actions involved taxpayers whose representatives are listed on the CAF as currently under
Office of Professional Responsibility sanction, when in fact the sanctions have been completed.
Employees relying on information on the CAF could provide confidential taxpayer information
to a suspended or disbarred practitioner. Conversely, employees may refuse to disclose taxpayer
information to a practitioner who has completed the period of suspension.




                                                                                          Page 18
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete

                                                    Appendix V


Management’s Response to the Draft Report




                                                        Page 19
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete




                                                    Page 20
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete




                                                    Page 21
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete




                                                    Page 22
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete




                                                    Page 23
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete




                                                    Page 24
Information on the Centralized Authorization File
       Is Often Not Accurate or Complete




                                                    Page 25
